<html>
<title> - LEGACIES OF WAR: UNEXPLODED ORDNANCE IN LAOS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                            LEGACIES OF WAR:
                      UNEXPLODED ORDNANCE IN LAOS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 22, 2010

                               __________

                           Serial No. 111-117

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
56-094                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2443544b64475157504c4148540a474b490a">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT<greek-l>Until 5/5/10 deg.
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F.H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Scot Marciel, Deputy Assistant Secretary and 
  Ambassador for ASEAN Affairs, Bureau of East Asian and Pacific 
  Affairs, U.S. Department of State..............................    11
Ms. Channapha Khamvongsa, Executive Director, Legacies of War....    28
Robert Keeley, Ph.D., Country Program Manager for Laos, The 
  Humpty Dumpty Institute........................................    40
Mr. Virgil Wiebe, Member of the Board, Mines Advisory Group (MAG) 
  America........................................................    48

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........     5
The Honorable Mike Honda, a Representative in Congress from the 
  State of California: Prepared statement........................    10
The Honorable Scot Marciel: Prepared statement...................    14
Ms. Channapha Khamvongsa: Prepared statement.....................    33
Robert Keeley, Ph.D.: Prepared statement.........................    43
Mr. Virgil Wiebe: Prepared statement.............................    51

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Eni F.H. Faleomavaega: Material submitted for the 
  record.........................................................    64
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    88
The Honorable Eni F.H. Faleomavaega: Additional material 
  submitted for the record.......................................    89


              LEGACIES OF WAR: UNEXPLODED ORDNANCE IN LAOS

                              ----------                              


                        THURSDAY, APRIL 22, 2010

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:08 p.m., in 
room 2172, Rayburn House Office Building, Hon. Eni F.H. 
Faleomavaega (chairman of the subcommittee) presiding.
    Mr. Faleomavaega. The hearing will come to order. This is 
the hearing on the Foreign Affairs Subcommittee on Asia, the 
Pacific and the Global Environment. Today's particular hearing 
is on the subject of the legacies of war concerning unexploded 
ordnance in the country of Laos.
    Unfortunately my ranking member is also under the weather, 
Congressman Manzullo from Illinois. I am extremely happy that I 
have one of my colleagues who traveled with me to Laos, 
Cambodia, Vietnam, and Japan recently, Congressman Mike Honda 
from California.
    I am going to begin with an opening statement, and then we 
will proceed from there.
    Ironically, 39 years ago to the day, in 1971, the late 
Senator Edward M. Kennedy, chairman of the Senate Judiciary 
Subcommittee on Investigative Problems, connected with Refugees 
and Escapees, held a hearing on April 21 and April 22 in 1971 
to address war-related civilian problems in Indochina, which 
includes Laos.
    Testifying before the subcommittee was the Honorable Paul 
McCloskey, a Representative in Congress from the State of 
California, who had just recently returned from a visit to 
Laos, where he and his colleague, Congressman Waldie, also of 
California, had obtained certain facts that totally 
contradicted testimony that had been submitted to the 
subcommittee by the Departments of State and Defense on May 7 
of the previous year, which was 1970.
    At issue was the causation of refugees and impact of U.S. 
Air Force bombing operations in Laos. The Departments of 
Defense and State suggested that U.S. bombing operations had 
been carefully directed and that very few inhabited villages 
were susceptible to being hit by U.S. air power.
    But as Senator Kennedy learned that day, and as we now 
know, the Departments of State and Defense submitted testimony 
that was incorrect and misleading. The truth is, widespread 
bombing had taken place and Lao refugees were succinct in 
describing the destruction of their homes, as well as the use 
of the CBU cluster bombs and white phosphorus.
    How extensive were the U.S. bombing raids, was the 
question. According to the Congressional Research Service,

        ``Laos has been characterized as the most heavily 
        bombed country in history, on a per-capita basis. From 
        1964 through 1973, the United States flew 580,000 
        bombing runs over Laos and dropped more than 2 million 
        tons of ordnance on the countryside, double the amount 
        dropped on Germany during World War II. Estimates of 
        the number of unexploded submunitions from cluster 
        bombs, range from 8 million to 80 million, with less 
        than \1/2\ of 1 percent destroyed, and less than 1 
        percent of contaminated lands cleared.''

    To be clear about what this means, I want to display a map 
of the U.S. Air Force bombing data that I obtained from our 
U.S. Embassy in Laos 2 years ago. This map tells it all. 
Looking at this map, can anyone honestly believe that there was 
no impact on the civilian population?
    What makes this so sickening is that cluster bombs and 
white phosphorus were used against a civilian population of a 
country against whom the United States was not at war. As 
Congressman McCloskey stated, ``The bombing was done under the 
direction and control of the State Department, not the U.S. Air 
Force.''
    In fact, the bombing was directed and controlled by the 
U.S. Ambassador to Laos. ``Both the extent of the bombing and 
its impact on the civilian population of Laos have been 
deliberately concealed by the State Department,'' Congressman 
McCloskey stated. And for historical purposes, I am submitting 
the complete text of the 1971 hearing record to be made a part 
of this record some 39 years later.
    Some 39 years later, in my humble opinion, it is shameful 
that the U.S. State Department has not taken a more active role 
in making things right for the people of Laos. But for the 
first time in 39 years, I am hopeful that Secretary of State 
Hillary Clinton may be willing to champion their cause.
    However, I am deeply disturbed that the State Department is 
planning to request lower amounts of unexploded ordnance 
removal in Laos for Fiscal Year 2011 than it spent in 2010. In 
my humble opinion, this is a totally unacceptable course of 
action.
    During the Vietnam War, I served at the height of the Tet 
offensive. And for as long as I live, I will continue to do all 
I can to help the victims of Agent Orange as well as those who 
are and were affected by U.S. bombing operations in Laos.
    Calling for an official public hearing is one way to draw 
more attention to the matter, but Vietnam and Laos deserve more 
than a hearing. These countries deserve a concerted effort on 
the part of the United States Government to help them rebuild, 
especially since their civilian populations were wrongfully 
targeted. Yes, we know that the U.S. bombing campaign in Laos 
was designed to cut off North Vietnamese supply lines that ran 
through Laos; but, no, the American people were not aware that 
the United States had undertaken, ``the most protracted bombing 
of civilian targets in history,'' as Fred Branfman put it in 
his statement which was included in the 1971 hearing record.
    To this day, America does not support the bombing of 
civilian targets. And after every war, America has always 
helped countries rebuild. Even after Japan attacked the United 
States, U.S. assistance to Japan from 1946 to 1952 was about 
$15.2 billion in 2005, of which 77 percent was in grants, 23 
percent was in loans, according to the Congressional Research 
Service.
    Also, according to the Congressional Research Service, from 
2003 to 2006, the USA appropriated $35.7 billion for Iraq 
reconstruction. For Germany, ``in constant 2005 dollars, the 
United States provided a total of $29.3 billion in assistance 
from 1946 to 1952, with 60 percent in economic grants and 
nearly 30 percent in economic loans, and the remainder in 
military aid.''
    What have we done for Laos as a government? For now, the 
United States has been contributing about $3 million per year 
since 1994 for unexploded ordnance clearance operations in that 
country. As every single one of us knows, this pittance is as 
disgraceful as the compensation we paid when the United States 
accidently bombed the Ban Long village in Laos in January 1968, 
which resulted in 54 persons killed. At the time, we 
compensated the village, or villagers, $55 for every person who 
had been killed.
    Senator Kennedy found that to be distressing. I do too. So 
enough is enough. Justice demands that these wrongs be set 
right; yet our own State Department is planning to request 
lower amounts for unexploded ordnance removal in Laos for 
Fiscal Year 2011 than the meager amount barely spent in Fiscal 
Year 2010. This is unconscionable. Laos is one of the poorest 
countries in Southeast Asia and one of the smallest recipients 
of U.S. assistance. As a country founded on Judeo-Christian 
principles, we can and should do better.
    I visited Laos again last year, and I can tell you I will 
not rest until the U.S. Government begins to take action and 
accepts moral and financial responsibility for the mess we left 
behind. Children in Laos are counting on us. And I want to 
especially recognize those who are being cared for at the COPE 
Center, and applaud the work of nongovernment organizations 
from around the world who are making a difference.
    I thank our witnesses from Legacies of War, the Humpty 
Dumpty Institute, and the Mines Advisory Group for their 
leadership, and I assure them that they have the full support 
of this subcommittee as we work together to make this right.
    I also want to commend His Excellency Phiane Philakone, the 
Ambassador of the Lao People's Democratic Republic, for the 
service he has rendered on behalf of his country. It is because 
of him that I was able to gain a firsthand understanding of how 
catastrophic U.S. Air Force bombing operations really were and 
are. To this very day, Thursday, April 22, 2010, these deadly 
unexploded ordnance continue to claim the lives of a people who 
are not and never were at war with us. And unless we rectify 
this now, the loss of life will go on and on tomorrow, the next 
day, and every day thereafter.
    As a matter of record, I am including a statement prepared 
by Minister Counselor and Deputy Chief of Mission Mai Sayavongs 
of the Lao People's Democratic Republic to the United States. I 
recognize the historic nature of this statement, and I pledge 
to do all I can to provide assistance for the unexploded 
ordnance clearance issue, mine awareness and victims assistance 
programs, which is an investment in the future of the lives of 
millions for the people of Laos.
    Joining us today is the Honorable Scot Marciel, my dear 
friend and Deputy Assistant Secretary and Ambassador for ASEAN 
Affairs of the Bureau of East Asian and Pacific Affairs at the 
State Department. Hopefully, my good friend, Ambassador and 
Secretary Marciel, can explain to us why the Bureau is not 
increasing the money that is so clearly needed to clear up 
unexploded ordnance.
    Scot Marciel has served in posts in Vietnam, the 
Philippines, Hong Kong, Brazil, Turkey, as well as with the 
Economic Bureau with the Office of Monetary Affairs. As the 
Deputy Assistant Secretary, he has done an excellent and 
remarkable job, and I sincerely hope that we will continue to 
work together on this issue and find resolution not only for 
the people of Laos, but for our Government.
    Secretary Marciel is a graduate of the University of 
California-Davis and also from the Fletcher School of Law and 
Diplomacy. He is the father of two daughters, and I am very, 
very happy that we have the opportunity of having him testify 
this afternoon.
    As I said earlier, I am very, very happy to have my good 
friend and colleague here, the gentleman from California, 
Congressman Mike Honda, who serves on the Committee on 
Appropriations, and who I would like at this time to give an 
opportunity for an opening statement if he has one.
    [The prepared statement of Mr. Faleomavaega 
follows:]<greek-l>Faleomavaega statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Honda. Thank you, Mr. Chairman, and I thank Secretary 
Marciel for being here.
    I don't have too much to add to what Congressman 
Faleomavaega had shared, except to add my sentiments, one of 
shock, one of dismay and one of a sense we are not doing enough 
and we are not doing quickly enough. If we expect to be helpful 
in that country in terms of food security and its development, 
then we have to address first the issue of unexploded ordnance.
    The fact that we allow ourselves to go daily, knowing full 
well what is out there and knowing full well that children are 
playing in those areas and knowing full well that there are 
families who want to convert a lot of this land into productive 
land for food, and still be exposed to these types of 
unexploded ordnance, is beyond belief.
    We don't send anybody in this country to any worksite that 
is dangerous, and yet we know things are existing in other 
places where we are responsible, and it doesn't seem that the 
level of urgency is met with the same amount of effort in terms 
of providing the right resources to address it. So I will be 
very interested in hearing a report.
    I just have to say one more thing. It appears that we are 
seeing that we are spending X amount of dollars per year, as if 
it were adequate, as if it were a favor. I am hoping that is a 
misreading of the print and not actually the sentiment or 
attitude that we have.
    So thank you, Mr. Chairman, again for putting this hearing 
together.
    [The prepared statement of Mr. Honda 
follows:]<greek-l>Honda statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Faleomavaega. I thank the gentleman from California for 
his comments and statement. I am just trying to figure it out. 
I am no expert on Air Force strategic military strategies and 
all of this, but I suspect that all of these red dots or all 
the--I think we had them on the screen there. Can we have that 
on the screen again? Could we have our red dots again?
    I don't know what direction the bombing raids come from. I 
suspect either from China, or also from Guam, and you are 
talking about B-52s. And if you ever see how they go out there, 
and what happens if they bomb the north, going up to near 
Hanoi, then whatever amount of ordnance that is left, rather 
than bringing them back to the station, they just drop them off 
in Laos. That is exactly what they did.
    And if they were going up north, fine. And if they find 
that they still had ordnance left and they were on their way 
down, they were on their way south, that is what happens.
    If you look at the southern portion of where all those red 
dots are--they are literally obliterated with bombing 
operations. I cannot fathom or even to believe or suggest; and 
I am not one to be pointing fingers here, but 39 years later we 
find out that these people were devastated, literally, by the 
bombing operations that we conducted.
    They never attacked us, they never declared war against the 
United States, but we did exactly what we felt like doing, and 
we did. The same thing also happened to Cambodia.
    I know that Secretary Marciel is an excellent student of 
history, and maybe he could give me a better insight of what 
took place during the Nixon administration. It is known as 
Nixon's secret war, and the American people were never aware of 
it until years later.
    But I would like to take this time now to give Secretary 
Marciel a chance for his opening statement.

   STATEMENT OF THE HONORABLE SCOT MARCIEL, DEPUTY ASSISTANT 
  SECRETARY AND AMBASSADOR FOR ASEAN AFFAIRS, BUREAU OF EAST 
      ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Marciel. Mr. Chairman, and Congressman Honda, 
members of the subcommittee, thank you very much for inviting 
me to testify today on the subject of unexploded ordnance in 
Laos. And, Mr. Chairman, thank you also for your leadership on 
this issue, which, as you stated, has not received enough 
attention.
    If I could, I do have a slightly longer written statement I 
would like to submit for the record and then do a brief oral 
statement, if that is okay with you.
    Mr. Faleomavaega. Without objection, your statement will be 
made part of the record.
    Ambassador Marciel. Thank you. As Secretary Clinton 
observed last year, the United States is back in Southeast 
Asia. And our efforts to build the United States' relationship 
with Laos should be seen in the context of our efforts to 
deepen our engagement in the region. We are making important 
progress in the relationship with Laos, exchanging Defense 
attaches, upgrading our bilateral dialogue, and working 
together on a broader range of issues.
    Our foreign assistance program in Laos is modest, but it 
has grown in both size and scope. Our efforts in terms of 
assistance are aimed at supporting economic reform and good 
governance, building a vibrant civil society, and improving 
health for the people of Laos.
    One of the most important elements of our programmatic 
engagement is in supporting the removal of unexploded ordnance, 
or UXO. As you stated, Mr. Chairman, during the Vietnam War, 
over 2.5 million tons of U.S. munitions were dropped on Laos. 
This is more than was dropped on Germany and Japan combined in 
World War II. Up to 30 percent of the bombs dropped over Laos 
failed to detonate.
    The U.S.-origin aerial weaponry accounts for a large 
proportion of the unexploded ordnance that is still a 
significant threat to public safety in Laos. The explosive 
remnants of war continue to impede development and cause 
hundreds of casualties a year.
    While Laos also has a land mine problem, unexploded 
ordnance is a much greater threat to the population, especially 
because of the value of UXO scrap metal, the pursuit of which 
brings people into direct contact with the weapons. Population 
growth in rural areas and other socioeconomic trends are 
increasing demand to put UXO-contaminated land into production, 
a development that also increases human contact with all these 
dangerous remnants of the war.
    With U.S. and international support, the Laos Government is 
creating a much-needed comprehensive national database to 
consolidate different data sets and accurate and up-to-date 
information on the scope of the contamination. Current 
statistics on contamination, clearance, and casualties are not 
always reliable, but efforts to refine the data are revealing 
the continued seriousness of the problem.
    The effects of the contamination are pervasive. The U.N. 
Development Program has reported that, ``UXO/mine action is the 
absolute precondition for the socioeconomic development of Lao 
PDR'' and because of UXO, ``economic opportunities in tourism, 
hydroelectric power, mining, forestry and many other areas of 
activity, considered the main engines of growth for the Lao 
PDR, are restrictive, complicated, and made more expensive.'' 
At the level of individual victims, of course, the consequences 
of death or maiming are catastrophic for entire families.
    Despite the grim scope of the problem, it would be a 
mistake to be pessimistic about our ability to help resolve it. 
Our goal is not to remove the last bit of UXO from Laos, 
anymore than Western Europe has removed any of its explosive 
remnants from World War II, and even World War I. Instead, our 
goal is to help Laos become as impact-free of its explosive 
contamination as possible, and the country has made major 
strides in that direction.
    For example, international support to the solid Lao effort 
amounted to about $15 million this year, resulting in the 
clearance of hundreds of thousands of explosive items from 
about 70 square kilometers of high-priority land. If 
international support continues at that same level for a 
decade, the results will be dramatic: Vastly reduced casualty 
levels and the clearance of virtually all of the country's 
highest-priority land areas.
    To address this problem, the Department of State supports a 
variety of humanitarian demining and unexploded ordnance 
clearance projects with funding from the NADR appropriation 
account. One of the top goals of that program is to clear all 
high-priority areas, specifically agricultural land, health and 
education facilities. Another is to develop indigenous mine and 
UXO abatement capacity.
    Although the bulk of U.S. NADR funds goes to UXO Lao, the 
Government of Laos' quasi-independent government agency charged 
with conducting clearance operations, we also fund NGOs that 
conduct independent clearance operations and run school-based 
campaigns to educate children about the dangers of tampering 
with UXO. We view our programs in Laos as successful overall 
and one in which the national authorities have established a 
credible and effective UXO action system.
    The United States is the single largest donor to the UXO 
sector in Laos. From 1993 to 2009, U.S. assistance has totaled 
more than $25 million. In Fiscal Year 2009, our total 
assistance for Laos UXO projects was $3.7 million and in Fiscal 
Year 2010 we will provide $5 million in UXO funding for Laos.
    In addition to this direct funding for UXO programs, the 
Department of Defense has provided technical and research 
assistance to aid in the clearance of unexploded ordnance. At 
the end of 2009, the Department of Defense provided UXO Lao 
with a searchable database known as the Combat Air Activities 
Southeast Asia Database, which is the most comprehensive 
collection of strike information from the Vietnam War. This 
information is critically important to the UXO sector for 
identifying contaminated areas and for planning and 
prioritizing clearance efforts.
    Individual victims, who have been injured by UXO, also 
require both our compassion and our support. The U.S. Agency 
for International Development provides critical disabilities 
assistance to help those whose lives have been irrevocably 
altered by the explosive remnants of war through the Leahy War 
Victims Fund. To date, USAID has provided more than $8 million 
in support for programs for survivors.
    We are now considering a program that would assist in the 
establishment of a UXO demining capacity in the Lao People's 
Army. The project would be phased in, and the initial 
activities would be to train two Lao People's Army UXO demining 
sections and fund initial operations in two provinces. The 
project would eventually include more advanced training, as 
well as expanding the number of Laos People's Army UXO demining 
sections to five.
    This capacity building may eventually lead Laos to be able 
to contribute--not only in Laos but to international 
peacekeeping efforts in UXO clearing and demining operations.
    The United States has worked closely with Laos on the issue 
of unexploded ordnance since 1993. Our aim has been to 
strengthen the clearance and capacity development of UXO 
institutions in Laos, along with providing victims assistance 
and risk-education programs in public schools.
    Through these joint efforts, we hope to improve the ability 
of Lao authorities to protect the environment and promote 
public health for future generations. As we continue forward, 
we will work hard to ensure U.S. Government assistance helps 
builds a safer society for the Laos people.
    Mr. Chairman, thank you for giving me the opportunity to 
appear before you today, and I know from your opening remarks 
that you have some questions. I will do my best to try to 
answer them.
    [The prepared statement of Ambassador Marciel 
follows:]<greek-l>Scot Marciel deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Mr. Secretary.
    I am just curious, as you mentioned, that we didn't begin 
our assistance program in dealing with Laos until 1993. What 
happened between the span of 1960s and the 1970s and the 1980s, 
because that is when when we continued the bombing, I guess.
    Would you care to comment on that?
    Ambassador Marciel. Mr. Chairman, you gave me probably too 
much credit earlier for being an expert historian, and I am not 
sure I am in all of this period.
    Certainly from 1975 and the end of the war, until I began 
working on Laos in 1990, relations were minimal; very limited 
until the late 1980s, and there was minimal interaction between 
our governments until the late eighties, really. But I would 
have to go back and get you a more authoritative answer as to 
when this was first looked at and discussed between our two 
governments.
    Mr. Faleomavaega. Could you? I would appreciate that 
because there seems to be a void here.
    Ambassador Marciel. I would be happy to do that, sir.
    [The information referred to follows:]
 Written Response Received from the Honorable Scot Marciel to Question 
    Asked During the Hearing by the Honorable Eni F.H. Faleomavaega
    Unlike Vietnam and Cambodia, diplomatic relations with the United 
States never were broken after the Lao People's Revolutionary Party 
assumed control in 1975. However diplomatic representation in Vientiane 
and Washington was reduced to the level of charge d'affaires, and the 
United States Agency for International Development and the United 
States Information Agency were forced to withdraw. Following the war, 
the Lao government was not receptive to the formerly large United 
States assistance program, which had supported the previous government. 
Western aid was replaced by assistance from Soviet bloc countries 
during the 1970s and 1980s.
    Beginning in the late 1980s, the United States and Laos began to 
cooperate on accounting for persons classified as prisoner of war/
missing in action (POW/MIA) and on counternarcotic issues. Diplomatic 
relations were restored reciprocally to the ambassadorial level in the 
summer of 1992. That same year, the U.S. Agency for International 
Development made a $1.3 million grant for a prosthetics project in 
Laos.

    Mr. Faleomavaega Between our bombing raids and operations 
and then, all of a sudden, oh, yeah, we started our assistance 
program since 1993. And I am curious; the bombing went on in 
the 1960s and 1970s, and I was wondering why the lapse. Is 
there anything that we did that caused this problem or we may 
have just simply forgotten about this? You had mentioned other 
international organizations that are helping, addressing the 
problem.
    As I understand these unexploded ordnance, do we have a 
record in terms of how many women, children, or even men, for 
that matter, die every year as a result of unexploded ordnance? 
Is there a record from the Lao people or the Lao Government?
    Ambassador Marciel. Mr. Chairman, the information I have is 
that we think there are approximately 300 casualties from UXO 
in Laos every year. I am not sure that I have a number for 
deaths per year, but we will seek to get that as well as 
confirm the source of that information.
    [The information referred to follows:]

 Written Response Received from the Honorable Scot Marciel to Question 
    Asked During the Hearing by the Honorable Eni F.H. Faleomavaega

    In 2009 the National Regulatory Authority for UXO/Mine Action 
Sector in Lao PDR (the ``NRA'') published the National Survey of UXO 
Victims and Accidents. That report states that in recent years 
approximately 35 percent of UXO accident victims are killed, while 
approximately 65 percent are injured but survive. Using the same 
report's figure of approximately 300 victims per year would mean that 
as a result of UXO/mine accidents, roughly 100 persons die each year 
and another 200 are injured.

    Mr. Faleomavaega. That was the figure that was given to me 
also. It was approximately 300 people die every year as a 
result of unexploded ordnance.
    I know that this is also a very controversial issue when 
you talk about cluster bombs, and the nature of these cluster 
bombs is that it is like a canister, and when it opens up you 
have a little--they call them ``bombies.'' It may end up with 
30 or 50 at a time. And so it doesn't necessarily explode, but 
you could have these 30 to 50 bombies that explode in a wide 
range, catching everything and anything in its path. It is like 
a grenade, but smaller in scale. But this one is a big one. 
This one is a big one.
    Have you had a chance to review the proposed budget for how 
much--that maybe we could afford a little more than $3 million 
a year in helping out with the unexploded ordnance? To me, I am 
sure our Government can do a lot better than this. We have got 
a $58 billion proposed budget in the State Department this 
coming year.
    I didn't mean to put you on the spot, Mr. Secretary, but I 
think the bottom line here is that without the financial arm of 
people that could be given the opportunity to address these 
issues, that we are going to continue doing this for the next 
100 years at $3 million a pop.
    It is a tremendous injustice, in my humble opinion. I am 
just wondering if our good people there in the State Department 
have had a chance to reevaluate. In fact, it is being proposed 
that we even decrease the funding, less than $3 million. Whose 
bright idea was that? I talked to our Ambassador there in Laos. 
He wasn't very forthcoming and it was always like, well, we 
don't have enough information. I would kind of like to think 
that we are a lot better than that in addressing the issue. I 
have a couple more questions.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. In our arsenal of 
technologies, do we have the ability to be able to detect metal 
from the air and metal or explosive kinds of chemicals that are 
on the ground by sweeping over the terrain?
    Ambassador Marciel. Mr. Congressman, I am afraid I don't 
know the answer to that. I am not aware that we do, but I will 
certainly check and see if that is something--certainly if we 
had that technology it would be very useful for something like 
this. But I don't want to hazard a guess because I am probably 
the most technologically illiterate person in the room.
    [The information referred to follows:]
 Written Response Received from the Honorable Scot Marciel to Question 
          Asked During the Hearing by the Honorable Mike Honda
    No existing technology can reliably detect mines or UXO from the 
air.

    Mr. Honda. I must be, too. So I would appreciate it if 
somewhere along the line we could get some information on that. 
I saw your head nodding ``no,'' but it seems to me we have all 
kinds of technology from satellites that we could pinpoint 
individuals in terms of body heat. It seems to me that with 
some work on programming, we would be able to detect metal 
objects on the ground.
    The other question is, Do we know how much money we spend 
on food security to help Laos to sustain a level of--I guess, a 
source of food for their own country? Do we know how much we 
spend on that?
    Ambassador Marciel. Thank you, Congressman. In response to 
the first question about the technology, I am told we do not 
have the technology from the air to do this. But if I could, I 
will take this question back and get you a definitive answer, 
the one on the technology.
    In terms of economic and food security, I am just looking 
at the numbers here, we have been spending about $1 million a 
year on global health and child survival. That is , frankly, 
more health than it is food security. And then about--just 
several hundred thousand dollars on promoting economic growth; 
that is, again, less directed to food security and more on 
promoting, helping Laos get into WTO, the idea being that this 
will contribute to overall economic development.
    I don't believe there is a specific budget for food 
security, but I will double-check and get back to you with 
that.
    [The information referred to follows:]

 Written Response Received from the Honorable Scot Marciel to Question 
          Asked During the Hearing by the Honorable Mike Honda

    The State Department does not provide food security assistance 
through the Global Hunger and Food Security Initiative. Since 2007, 
USDA has awarded three McGovern-Dole Food for Education Programs in 
Laos. The McGovern-Dole International Food for Education and Child 
Nutrition Program helps promote education, child development, and food 
security for some of the world's poorest children. It provides for 
donations of U.S. agricultural products, as well as financial and 
technical assistance, for school feeding and maternal and child 
nutrition projects in low-income countries.
    In FY 2008 the World Food Programme (WFP) was awarded 540 metric 
tons (MT) of canned salmon, 1,250 MT of corn-soy blend, 4,890 MT of 
milled rice, and 330 MT of vegetable oil to implement a three year 
school feeding program in Laos. The total value of this program is 
approximately $10.3 million. Additionally, in FY 2008, a private 
voluntary organization (PVO) was awarded 170 MT of black turtle beans, 
20 MT of canned salmon, 190 MT of corn-soy blend, 250 MT of milled 
rice, and 20 MT of vegetable oil to provide direct feeding and take-
home rations to targeted beneficiaries. This two-year program was 
valued at approximately $3.8 million. In FY 2010 the PVO was awarded an 
additional $4.2 million to continue and expand its school feeding 
program. Donated commodities under FY 2010 funding will include 300 MT 
of beans, 40 MT of canned salmon, 140 MT of corn-soy blend, 460 MT of 
milled rice and 30 MT of vegetable oil.

    Mr. Honda. The petition given to the WTO, I would be 
curious, which arena does the country see themselves pursuing 
in terms of being involved and active in WTO? Perhaps somewhere 
along the line that question can be answered.
    The reason I ask is because if we have that kind of a 
scattering of unexploded arsenals throughout that country, how 
is it that they are going to be able to become active in the 
world economy? I understand that we spent approximately $2 
million a day dropping the bombs in Lao; that is, the value of 
the dollar at that time. In today's dollars it is about $17 
million a day. And yet we are still talking about single digit.
    I know that Congresswoman McCollum in 2004 secured $2.5 
million for Laos for cluster munition removal. In 2007, 2008 
and 2009, the Office of Weapons Removal and Abatement allocated 
less than $2 million for Laos. And then this year, Tim Reiser 
was able to request $5 million for Laos, yet only $1.9 million 
was spent.
    I put in a request last year for $5 million, I think; and 
then this year, this coming budget, to put in $7 million to be 
added with the other countries' efforts. And I understand that 
we have to get to about $24 million for the next 10 years to 
have some sort of adequate program of removal.
    I don't know what that means, because we don't talk about 
the rate at which we want to remove these unexploded ordnance.
    It is curious that we are looking at the military to remove 
these unexploded ordnance, and perhaps the assumption is that 
they are better equipped to do this.
    I wonder whether this is not an opportunity, if we want to 
create an economic development activity, that people will be 
engaged and taught how to use up-to-date technology to remove, 
detect and remove these unexploded ordnance and then also be 
able to enjoy the sale of those unexploded ordnance, either the 
metal--I understand there are some activities, economic 
activities around that. It seems to me that should be something 
that should be specifically done for the folks there, and it 
appears that there is plenty of work there.
    But the issue is training and having the state-of-the-art 
equipment. And if food security is the issue, then we should be 
on a very fast track in training, removal, and then the sale of 
the metals, that all go back to the coffers of the people in 
Lao. I don't know whether you have a comment to that.
    Ambassador Marciel. Thank you, Mr. Congressman. A couple of 
comments, if I could. In terms of the numbers, we have a 
breakdown of the amount that we have spent from State 
Department money on UXO removal since 1997. I won't read the 
whole list, but I am happy to submit it.
 Written Response Received from the Honorable Scot Marciel to Question 
    Asked During the Hearing by the Honorable Eni F.H. Faleomavaega
    NADR bilateral lines for Laos are as follows:
        FY97 = $1M
        FY98 = $1.7M
        FY99 = $1.8M
        FY00 = $1.486M
        FY01 = $993K
        FY02 = $1.323M
        FY03 = $1.2M
        FY04 = $1.412M
        FY05 = $2.5M
        FY06 = $3.3M
        FY07 = $2.55M
        FY08 = $2.953M
        FY09 = $3.7m (1.9m bilateral and an additional $1.8m Global 
        NADR funds)
        FY10 = $5M

    Ambassador Marciel. But just for the last few years, Fiscal 
Year 2008 was just under $3 million; Fiscal Year 2009, $3.7 
million. In that case we had $1.9 million that was actually a 
line item in the budget request, but an additional $1.8 million 
was pulled out of the global NADR fund, if you will, for this 
and spent in Laos. And then for Fiscal Year 2010, I have to say 
with a lot of help from people up here, $5 million being spent.
    In terms of the second question about the military doing it 
versus civilians, it has been a civilian organization, the Lao 
UXO, quasi-governmental, as I mentioned, that has been doing 
the bulk of the work on this under the guidance of the Lao 
National Regulatory Authority. And we have been funding them, 
and I have gone there and met with them on a couple of 
occasions.
    What we are talking about with the military is to 
supplement that; not to suggest that the military should take 
over, but we think the military might be able to play a helpful 
role supplementing it, and so the Defense Department is looking 
at that.
    Mr. Honda. If I may, to the chair, if we are looking at 
economic development, it seems to me that we should try to put 
that into the purview of the civilian sector rather than the 
military, and this is about creating technology and knowledge 
and skills among folks that we may be able to use in other 
parts of the world where these skills are needed. The comment 
about not completely eliminating or not completely eliminating 
the unexploded ordnance, this doesn't sit well with me. I think 
that we did it; we clean it. Our parents taught us that. Our 
parents taught us to leave a place better than you found it.
    I think that should be incumbent upon us, even though in 
Western Europe they didn't do it. Well, that is there, this is 
here, and this is more of an undeveloped country that is more 
agricultural. And to leave even one behind, where a child or a 
person may become maimed or killed because of that, is not 
acceptable.
    The fact that we talked about 2.5 million tons of ordnance 
that was dropped, 26-30 percent have not exploded, sort of 
speaks to the idea that we left behind on purpose this kind of 
a situation so that it creates some sort of a psychological 
edge for us in a land where we did not have those folks become 
our enemy combatants, but we were trying to nail down the Ho 
Chi Min Trail.
    And I guess I wonder whether the practice of dumping the 
rest of the arsenal after they do the bomb run, there is that 
space in the middle where it is hardly any red dots, and then 
there is a mass of red dots where we dumped the rest of our 
ordnance. Whether that was a practice that was accepted by the 
military, or whether it was a practice so that you go back 
empty-handed so you can load up again and incur further costs. 
I just don't know what the rationale behind that is except that 
have it leaves it open to a lot of questions.
    Thank you, Mr. Chairman.
    Mr. Faleomavaega. I thank the gentleman for his questions.
    I always try to remind myself, Mr. Secretary, you condemn 
the act but not the person. So, please, just look at my 
questions as the situation rather than any personal aspersion 
against you, my dear friend.
    Question. It seems that members of the international 
community are more concerned about the unexploded ordnance than 
our own Government, as it is reflected by the fact they donate 
$15 million. I have met with some of those people, I think 
either from the European Commission and from the European 
community, and we are putting in a paltry $3 million; and yet 
we are the ones that caused the whole problem, we are the ones 
that caused the mess. It would have been nicer if we had 
suggested we were the ones putting in $15 million and the rest 
of the world committed and put in what they could; at least a 
lot better than in terms of how we have been able to do this.
    I just cannot perceive that the most powerful Nation in the 
world can only afford $3 million to rectify or to clear this 
problem that has been in existence now for over 40 years, not 
of their doing. I don't know whether it is because we had 
displaced such a tremendous amount of arrogance on our part, 
thinking that we can beat anybody, we are the big kid on the 
block, and therefore that is all we can do.
    But when I met with the children and the people that have 
been affected by these unexploded ordnance, I know the position 
of our Government is currently that we will not support any 
international convention to get rid of cluster bombs 
altogether. Am I correct on that?
    Ambassador Marciel. Mr. Chairman, thank you.
    Mr. Faleomavaega. I believe we are probably one or two of 
the only countries in the world that is not a subscriber or 
signer to the international cluster bomb elimination or 
prohibition or whatever we call it.
    Ambassador Marciel. Mr. Chairman, it is true that the 
United States is not a party to the Convention on Cluster 
Munitions, that is true.
    If I could just mention briefly a couple of other things, 
and also in response to Congressman Honda's points, first, I 
mean, I take your points and will take them back to the State 
Department and to the Secretary of State, particularly about 
the issue of cleaning up all the ordnance as opposed to a part 
of it or a good part of it, as well as the amount of money that 
we are spending.
    As you know, you mentioned earlier our Ambassador in Laos, 
Mr. Chairman, and we are not supposed to talk about who 
suggested money and this sort of thing, but I can say with 
confidence that it is not our Ambassador in Laos who is 
suggesting we spend less.
    Mr. Faleomavaega. It is the OMB. I know that.
    Ambassador Marciel. He is very committed on this issue. And 
another point. If I could just mention the question of was it 
purposeful in some way to leave behind these munitions. Again, 
I was not involved in the 1960s and early 1970s in this, so I 
can't say with certainty, but I think the fact that about 30 
percent of the munitions didn't explode was not intentional as 
far as I understand. But in the end, for the people who are 
living in Laos--and I have been there and I have seen people, 
you know, using these bombies and so on, I mean, actually using 
the shells to build fences and build houses. So for them it 
doesn't matter, to be honest, whether it is intentional. It is 
still a threat to them. And so I very much share in your view 
to do everything we can to address it.
    Mr. Faleomavaega. I believe the Humpty Dumpty Institute has 
been one that has been very, very actively engaged on this 
whole issue of getting rid of unexploded ordnance. It seems 
that there is always a passing-the-buck going on between the 
Department of Defense and the State Department. If we want to 
get something, ``Oh, no, check with the DoD.'' And then we 
would get to DoD and they would say, ``No, check with the State 
Department.''
    It gets to the point where playing this yo-yo game doesn't 
seem to make it any better, I suppose. We have used between 8-
80 million cluster bombs, and according to the records that I 
have, less than 1 percent of the contaminated lands have been 
cleared. Yet I would say that a tremendous amount of economic 
development in this country lies in agriculture development.
    Could you provide for the record, Mr. Secretary, what 
exactly is the status of the available agricultural land that 
has now been cleared as a result of this program of cleaning up 
the areas? I would appreciate it if we can provide that for the 
record.
    [The information referred to follows:]

 Written Response Received from the Honorable Scot Marciel to Question 
    Asked During the Hearing by the Honorable Eni F.H. Faleomavaega

    The 2009 Landmine Monitor Report states that all operators in Laos 
in 2008 cleared a total of over 54 square kilometers of land, most of 
which was for agriculture. This figure represents a 29 percent increase 
from 2007, and that increase is typical of what recent improvements in 
methodology have made possible. For example, UXO Lao (the largest 
clearance operator in the country) reports that from 1996 through 2008 
it has cleared 145 square kilometers, of which 27 were cleared in 2008 
alone.

    Mr. Faleomavaega. Secondly, I would like to know if we have 
any experts in the Department of Defense that know how to 
dismantle these bombies so that perhaps something could come 
out of the Department of Defense to be of help in this effort.
    With a $756 billion budget, I would hope that a couple 
million here or there should be sufficient--or even sending 
experts, demolition experts that know how to clear up these 
farmlands that are now contaminated simply because people are 
afraid to go there and to conduct any harvesting or any 
agricultural development because of the presence of these 
harmful munitions. What is your sense of the Department of 
Defense; they do not claim any responsibility for what has 
happened?
    Ambassador Marciel. We actually do work and coordinate with 
the Department of Defense on this. As you suggested, the idea--
they do have expertise, certainly. And as I mentioned earlier, 
there was the idea that we had been considering with the 
Department of Defense, of them providing training, capacity 
building, if you would, based on their own expertise. It is not 
a program that is in effect, but it is one that I know they 
were considering.
    As I mentioned, it would be to train folks in the Lao 
military. As you know, in a similar--well, somewhat different 
situation, there was a lot of training done for Cambodians that 
was in mine removal. It has been very helpful in Cambodia, but 
actually now the Cambodians are actually clearing mines in 
Africa in a major contribution under U.N. Auspices. So I think 
there is a potential here, certainly.
    I will get back to you. I will check and see what 
information we have about, you know, land that has been 
cleared. I have a little bit of information about the pieces of 
ordnance, apparently 400,000--400,000 pieces of ordnance have 
been cleared over the last 3 years. That is the combined 
effort. It is hard to attribute just to the U.S. assistance 
because these programs have been combined.
    But needless to say, there is a lot more still to do and I 
will see if I can find any information on the land.
    Mr. Faleomavaega. Will the State Department be objecting to 
anything that we may want to request through the appropriations 
process, that perhaps a little increase on the funding that is 
needed to be part of this munitions clearance program could be 
better than what we have done now? So rather than decreasing 
the amount, we ought to be increasing the request in some way 
or form. I know that you are not in a position to tell me 
whether or not you agree with my assessment but, Mr. Secretary, 
I have got the record here.
    And I just hate to see that when I am gone, another 39 
years later the problem is still there. This is not the America 
that I know of. This is not the America that I know of, and its 
efforts to make or to correct the mistakes that we have made in 
the past. And I don't think it requires billions of dollars to 
do this but rather a little humanitarian view--and I realize 
that some policymakers, I am sure here in Washington, look at 
these people as backward and therefore have an attitude of who 
cares?
    I remember when we were negotiating the issues dealing with 
the Micronesian countries. I believe it was Henry Kissinger who 
made a statement, ``There is only 90,000 of them. Who gives a 
damn?'' So that is the kind of attitude that I think that if he 
does it for these lowly Micronesians, I can imagine that that 
is the same attitude that prevails throughout major departments 
like the State Department and the DoD.
    But these people are human beings. They may live on the 
other side of the world, but they have the same wants and 
desires and hopes for a better life, and for their children to 
get a better education, as all of us here will do.
    I am not a pacifist, Mr. Secretary but, doggone it, I know 
our country can do a lot better than what we are doing now 
concerning this issue.
    And I will appreciate if you could give me the best and the 
highest person at DoD that I can talk to, I think our Assistant 
Secretary for International Security--what is the gentleman's 
name? I am sure you know him; he is in the Department of 
Defense. I will definitely make contact with him concerning 
this issue.
    With that, Mr. Secretary, thank you so much. And I deeply 
appreciate your taking the time to come and be with us this 
afternoon. We will follow up on this. There are more questions 
that other members will submit to you in writing. Thank you, we 
appreciate it.
    We have our next panel. We have three more distinguished 
visitors here on our next panel: Channapha Khamvongsa, Dr. 
Robert Keeley, and Mr. Virgil Weibe.
    Channapha Khamvongsa is the executive director of Legacies 
of War. It is an organization that seeks to address problems of 
unexploded cluster bombs in Laos, provide space for healing the 
wounds of war, and to create greater hope for the future of 
peace. She was previously appointed to the Seattle Women's 
Commission and served on the boards of the Refugee Women's 
Alliance Conference in Asia Pacific American Leadership; 
currently interim board chair of the Mines Advisory Group, USA. 
Ms. Channapha's father is from Luang Prabang and her mother is 
from Thakhek, both from Laos. She was born in Vientiane, came 
to the United States at the youthful age of 7; studied at 
George Mason University and also at Oxford. She received her 
master's in public policy from Georgetown University.
    Doctor Keeley is a former British armed bomb disposal 
officer who has been working in humanitarian mine actions since 
1991. His work has taken him to several countries, including 
Kuwait, Bosnia, Croatia, Mozambique, Cambodia, Vietnam, Laos, 
Afghanistan, Sudan, and Colombia. He was the first humanitarian 
deminer to be sent to the former Yugoslavia to help transition 
from the U.N. Peacekeeping mission, and was the head of the 
U.N. Mine Action Center in Croatia until 1997. Dr. Keeley 
conducted research and completed his doctorate from the 
Imperial College in London. His thesis was the economics of 
land mine clearance. His thesis has now been published in a 
book form and I hope to get one copy from Dr. Keeley soon. He 
is very, very actively engaged in the issues of land mines as 
well as unexploded ordnance.
    Professor Virgil Weibe is from from Saint Thomas and 
received his doctorate from the New York University School of 
Law, LLM from Georgetown, Latin American studies. He has a 
master's in philosophy from Oxford, and a bachelor's from 
Kansas State University. Professor Weibe after law school 
clerked for Judge James Francis, a Federal magistrate judge in 
the Southern District of New York in 1999, when he joined the 
Center for Applied Legal Studies at Georgetown Law Center as an 
advocacy Fellow. He has been an active participant in the 
efforts to curb the use of land mines and cluster bombs in 
armed conflicts.
    Gentlemen and lady, thank you so much for being here. With 
unanimous consent, your statements will be made part of the 
record.
    I would like to begin by letting Channapha begin. We will 
go along in that sequence.

  STATEMENT OF MS. CHANNAPHA KHAMVONGSA, EXECUTIVE DIRECTOR, 
                        LEGACIES OF WAR

    Ms. Khamvongsa. I will be making a shorter statement, but I 
have a written statement we would like to submit for the 
record. So good afternoon, Chairman Faleomavaega, Congressman 
Honda, ladies and gentlemen. First of all, I would like to give 
my sincere thanks to Chairman Faleomavaega, the subcommittee, 
and its wonderful staff for organizing the historic hearing 
entitled, ``Legacies of War: Unexploded Ordnance in Laos.''
    From what I understand, this is the first hearing on the 
scourge of unexploded ordnance, or UXO, in Laos, a legacy of 
the U.S. bombing of Laos during the Vietnam War. Tragically, 
more than four decades after the end of the bombing, more than 
300 Lao people, one-third of them children, continue to be 
killed or injured by UXO every year. Just this February, on 
February 22, eight children from Champassak Province came upon 
a cluster bomb similar to this one. They were in the rice 
paddies near their home. Like many bombs, these deadly weapons 
resembled a toy, and the children tossed it around in play. The 
bomb exploded. Two children survived. One was severely injured 
and five were killed. Beyond this terrible human toll, UXO 
continues to hamper economic development in one of the poorest 
countries in the world.
    Today is also significant, as mentioned earlier, because 39 
years ago this week, the Senate held a historic hearing on the 
status of refugees in Laos. This hearing, chaired by Senator 
Ted Kennedy on April 21 and 22 of 1971, helped to expose the 
secret bombing of Laos. The bombing had begun in 1964, and had 
displaced hundreds of thousands of civilians within Laos, but 
had never been disclosed to Congress or the American public.
    The bombing finally ended in 1973. This was the same year I 
was born in Vientiane, the capital of Laos. When I was 6 years 
old, my family left Laos due to the country's political 
instability. We spent 1 year in a Thai refugee camp and 
eventually resettled here in Virginia. Many of the 400,000 Lao 
refugees who now reside in the United States have similar 
stories. We were fortunate to resettle in America, but were sad 
to leave behind family members and friends who we feared we 
might never see again.
    Much has changed since then. Over the past 10 years, 
improved relations between the Lao and U.S. Governments have 
allowed me to travel back to Laos numerous times. Like 
thousands of other tourists who visit Laos every year, I feel a 
deep affection for the people, culture, and land that I barely 
remember from my childhood. Reconnecting with my Lao heritage 
included discovering the dark history and lingering effects of 
the secret war in Laos.
    This discovery led me to establish Legacies of War, where I 
currently serve as executive director. Legacies is the only 
U.S.-based organization dedicated to raising awareness about 
the current devastation that has resulted from the Vietnam War-
era bombing in Laos. Our mission is to advocate for the 
clearance of unexploded bombs and provide space for healing the 
wounds of war.
    Since our founding in 2004, we have worked with Lao 
Americans, bombing survivors, veterans, artists, 
nongovernmental organizations, and others, to establish a 
credible voice for reconciliation and justice. As we know, Laos 
is the most bombed country per capita in history. U.S. bombings 
left Laos contaminated with vast quantities of unexploded 
ordnance. At least 20,000 people have been killed or injured by 
UXO in Laos since the bombings ceased.
    I would like to share with you some other disturbing facts 
about the U.S. bombing of Laos and its tragic aftermath; 
260,000 million cluster bombs were dropped in Laos during the 
Vietnam War. An estimated 75 million cluster bombs did not 
detonate, scattering throughout Lao villages, rice fields, 
school yards, pasture lands, and forest. During the bombing, 
the equivalent of a planeload of bombs was dropped every 8 
minutes, 24 hours a day, for 9 years. About one-third--at least 
one-third of the land in Laos is littered with UXO.
    So for more than 20 years after the war ended, Lao 
villagers struggled to survive among vast quantities of 
unexploded ordnance without any organized technical assistance 
or clearance program. The relationship between Laos and the 
United States was strained, and there were no humanitarian 
demining programs operational in the Lao NGO sector.
    In the 15 years since the demining program began in 1994 
with the help of the Mennonite Central Committee and the Mines 
Advisory Group, it has grown, employing Lao nationals in nine 
provinces. Undoubtedly, thousands of lives have been saved and 
injuries avoided as a result of this work. Yet fewer than 0.5 
million of the estimated 75 million unexploded bomblets have 
been destroyed. As you mentioned, Chairman, less than 1 percent 
of the contaminated land has been cleared.
    Initially I was surprised by the small percentage of land 
that has been cleared. Then, during a trip to Laos in 2008 as 
part of a Legacies of War delegation, I observed a clearance 
team working in the field. I witnessed the slow, dangerous, 
tedious process of surveying, detecting, and detonating UXO. I 
was humbled by the men and women we met during our trip who 
risk their lives daily to make the land safe for others.
    Formal UXO clearance in Laos is now coordinated by the Lao 
Government's National Regulatory Authority, or NRA, with 
several dozen partner organizations and international donors 
that support the UXO clearance, victim assistance, and mine-
risk education. The UXO clearance sector has built up a well-
trained and experienced workforce. Through new, more effective 
equipment and careful planning, clearance teams have 
dramatically improved their efficiency.
    An official of the State Department's Office of Weapons 
Removal and Abatement has called the National Regulatory 
Authority UXO program in Laos, ``one of the best programs in 
the world. The gold standard.''
    The NRA's newly completed strategic plan over the next 10 
years offers clear, achievable goals, including the reduction 
of UXO casualties from the current 300 to less than 75 per 
year, and ensuring that the medical and rehabilitation needs of 
all UXO survivors are met in line with obligations of the 
Convention on Cluster Munitions, an international agreement 
signed by 106 countries to ban the production, transfer, and 
sale of cluster munitions and to destroy current stockpiles.
    So what is the funding required? According to the NRA, 
during each of the past 3 years, a total of $12-14 million was 
spent for clearance goals. Funding for clearance comes from 
international donors, including the U.S., but the NRA estimates 
that the UXO sector will need at least double the amount per 
year to meet its 10-year goals.
    The problem for UXO clearance in Laos is the absence of a 
long-term funding commitment that matches the scale of the 
problem. In order to buy equipment and train and maintain 
adequate staffing, clearance organizations working in the field 
must have assurances of a continued, reliable stream of 
funding. Therefore, we recommend a U.S. commitment of $7 
million to support UXO clearance in Laos in Fiscal Year 2011, a 
measured increase from this year's allocation of $5 million. 
Thereafter, we recommend an annual U.S. commitment of $10 
million over the next 10 years. This would strengthen and 
secure the UXO sector's capacity and bring its already 
effective programs to scale. This 10-year, $100 million 
commitment to UXO removal in Laos would total less than what 
the United States spent in 1 week bombing Laos.
    I have focused primarily on UXO clearance in the statement, 
but I also want to address the related need for victim 
assistance. Close to 40 percent of UXO accidents result in 
death, leaving many families without the primary breadwinner or 
caregiver. For the 60 percent who survive, their lives will 
never be the same. Almost 14,000 injuries have resulted in the 
loss of one limb, while close to 3,000 victims have lost two 
limbs. There is a serious need for better emergency health care 
after accidents occur, as well as longer-term needs for 
prosthetics, physical rehabilitation, and vocational 
retraining.
    According to the NRA, only $2.5 million a year currently 
goes toward victim assistance needs in Laos. Agency staff 
estimates that at least $5 million a year will be required to 
adequately help victims and their families.
    So what is the current U.S. funding support? The United 
States has provided about $40-50 million in funding for UXO 
removal in Laos over the last 15 years. It averages about $2.7-
3 million per year. Compare this to $7 million the United 
States spent each day for 9 years bombing Laos. In other words, 
the United States spent more in 3 days dropping bombs on Laos 
than it has spent in the last 15 years cleaning them up.
    In Fiscal Year 2010, Congress designated $5 million 
specifically for UXO clearance in Laos, the largest amount 
allocated in any given year to date. Unfortunately, despite a 
specific congressional mandate for $5 million for bomb removal 
in Laos this year and in subsequent years, the Department of 
State is only requesting $1.9 million for next year.
    The funding levels for UXO clearance in Laos have been 
disproportionate to the magnitude of the problem. There seems 
to be little regard for the level of contamination in the 
country or the source of the UXO. One-third of worldwide 
cluster munitions casualties occur in Laos, yet the funding 
doesn't reflect this stark reality.
    It has been nearly 40 years since the secret U.S. bombing 
campaign in Laos was finally revealed to Congress and the 
American public, yet all of these years later massive 
quantities of UXO remain a dangerous threat to the daily lives 
of the people in Laos.
    I would like to mention Mor. She is a 5-year-old girl from 
Thaijok Village in Xieng Khouang Province. Unlike hundreds of 
Lao children who have been killed or injured by cluster bombs 
each year, Mor is still alive and healthy. But she lives and 
plays among these deadly weapons every day. She has never known 
a bomb-free backyard. We must do what we can to protect 
children like Mor and clear the land so that when she walks to 
school or her family plows their fields, everyone returns home 
safely at the end of the day. We should want this for Mor and 
the generations that will follow her.
    The problem of UXO in Laos has been allowed to persist far 
too long. Too many innocent lives have been lost. But it is not 
too late to stop this senseless suffering. This is one of those 
rare problems, rare policy problems with a clear and effective 
solution. The United States has a responsibility to clean up 
the unexploded bombs it left behind in Laos and provide support 
for those harmed since the end of the war. It would require 
only a relatively modest increase in U.S. funding to 
dramatically improve clearance and victim assistance in Laos.
    Clearing cluster bombs and supporting those injured by them 
is an act of humanity and decency. It is the right thing to do. 
The State Department must make a sustained commitment to 
solving this problem.
    We recommend an allocation of at least $7 million next 
year, followed by a subsequent increase of $10 million per year 
over the next 10 years. Only with this kind of consistent 
support will the scourge of UXO in Laos finally come to an end.
    Thank you, Chairman Faleomavaega, Congressman Honda, for 
the opportunity to offer our statement today. We appreciate the 
attention that you have brought to this important issue.
    [The prepared statement of Ms. Khamvongsa 
follows:]<greek-l>Channapha Khamvongsa deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you very much.
    Dr. Keeley.

STATEMENT OF ROBERT KEELEY, PH.D., COUNTRY PROGRAM MANAGER FOR 
               LAOS, THE HUMPTY DUMPTY INSTITUTE

    Mr. Keeley. Thank you very much. Can I start by saying it 
is quite an honor to be called to testify. I am quite grateful 
for the opportunity. I would like to say as well that my 
testimony, which is in full, obviously, and I will summarize 
it--but Ms. Khamvongasa and I have never met before today, but 
actually what you will hear is that although we have worked on 
this from a completely different angle, some of our conclusions 
are remarkably similar, which seems to triangulate some of our 
findings.
    So as you mentioned, I studied life as a bomb disposal 
officer, so I have a technical perspective; but I am also an 
economist as well. So I am going to testify in both directions. 
There is one area, another perspective on this which you may 
consider helpful, which is when large unexploded aircraft 
bombs--they constitute a point hazard, but cluster munitions 
contaminate a whole area within their footprint.
    I did a lot of work with the people in Laos 2 years ago on 
this map. What we did was we removed all of the aircraft bombs 
from the map and we looked at the points that represent cluster 
munitions. Basically, there is about 0.5 million hectares 
covered by cluster munitions on that map which translate into 
1,930 square miles. So that is a way of conceptualizing the 
problem slightly differently from the way we have been talking, 
because when we clear weapons, we tend to think in how many 
square meters we clear a day. So it is worth scoping the 
problem in terms of area.
    In the questions that you sent me, you asked me a question 
about the effects of these weapons on the economy. First of 
all, as has already been mentioned, most of the economy in Laos 
is based on agriculture production, and rice in particular. So 
it is possible to use the opportunity cost of the land that 
can't be used as a measure of the impact. I will talk about 
that more later.
    Also, where there are infrastructure projects--road 
clearance, dams, hydroelectric power--the UXO clearance acts as 
a tax of about 30 or 40 cents per square meter. So any 
infrastructure project that is planned in Laos has to carry the 
cost of the UXO clearance as a line item, which obviously makes 
those projects more expensive.
    But in the private sector there is an unseen impact. I am 
not talking about the village level, but the small to medium 
enterprise level. These costs can act as a barrier to entry, 
particularly in projects such as forestry or agribusiness where 
the cost of investing in a project becomes significantly higher 
because of the cost of the UXO. Unfortunately, we can't measure 
this because we don't know how many people have chosen not to 
invest in projects because of the cost of the UXO clearance.
    For example, I was helping a Japanese agribusiness that had 
been looking at growing medicinal plants. And the startup cost 
was going to be significantly increased by the cost of the UXO 
clearance. I think they may have decided not to invest. At the 
village level, most of the poorest people, as we have heard, 
they can't afford a choice. So they have to use this land as 
contaminated.
    It should also be emphasized from an economic point of view 
that some of these families are forced to make the otherwise 
incomprehensible choice of sending their children out 
deliberately to look for these bombs. These children are kept 
out of school. They are given a $15 homemade metal detector and 
they go and look for scrap metal. There is a very strong 
correlation between the casualty rates, the price of scrap 
metal, and the price of food. I think it is quite clear that we 
can see as people need more food, they take more risks and go 
and look for this stuff. In fact, that is one of the major 
causes of the casualties today.
    I would like to go now in the rest of my time to talk about 
answering the last question you gave us, which is about how 
much would it cost. As a bomb disposal officer and somebody 
committed to this subject, I would like to be clearing every 
last weapon there is in Laos, and that would take many years 
and cost billions of dollars. As an economist, I recognize we 
have scarce resources and we have to make some harsh choices. 
If we use the principle of cost-benefit analysis and look at 
the land that is potentially of the most value and remove the 
areas which are otherwise unusable--mountainous areas, for 
example, in Laos--we actually get down to about 78,000 hectares 
of the original 500,000, or 300 square miles. If we were able 
to use new techniques--and I will talk more about technology 
later--but if we were able to use new survey techniques, it is 
conceivable we could get the area down to 22,000 hectare, which 
would be 84 square miles. That is about 7.5 percent of the 
actual contamination, but it represents the most important land 
to be cleared.
    When we did the calculations on this 2 years ago, it 
basically worked out at about $138 million, so it is very close 
to the number that you have come up with. That is $138 million 
spent over 16 years would be needed to clear the most impacted 
land. Now I know that sounds like a lot of money, but it is 
only 7.5 percent of the total contamination. I think we should 
remember, to put this into context, that the clearance of the 
Exxon Valdez cost $2 billion. So this is quite a small budget 
and it is quite justifiable by any criteria.
    So, to summarize, there is a sound economic argument for 
increasing the budget for the UXO clearance, making longer-term 
commitments. And I completely agree that one of the problems is 
that the sector out there is constantly living on a hand-to-
mouth situation. They can't budget properly. They don't know 
where next year's money is coming from. So whatever we do, it 
should be more long term and more measurable so the people can 
predict what they are going to have available next year. If we 
did that, we can actually measure the benefits to the economy 
as an investment. So this isn't a cost; this is a benefit. We 
can consider this an investment in the Laos economy.
    I would like to say in support for the Office of Weapons 
Removal and Abatement, they already support a number of 
programs throughout the world. One of the things I am worried 
about is if we force them to just reallocate their existing 
budget from other countries to solve the Laos problem, we are 
simply robbing Peter to pay Paul. So this really would need to 
be new money, as opposed to taking money out of their existing 
pocket and spending it somewhere else.
    So I would just like to finish the answer to the question 
you asked about technology earlier. So I will put my bomb 
disposal hat back on. And I would like to speak on behalf of 
all the bomb disposal and land mine clearance organizations 
that can't be here today. We have been promised a lot from 
technology over the last 20 years or so since we have been 
doing this sort of work. It hasn't really delivered very much. 
In fact, the problem in Laos is comparatively simple. We don't 
need detectors from space. We really don't. And I am worried if 
we started spending money on the research, people would take 
the money, but we wouldn't actually get results. We can achieve 
the result in Laos with existing technology. There is room for 
improved techniques and improved efficiency. But it would be a 
false horizon, in my humble opinion, to start spending research 
dollars on this. We know what we need to do. We just need the 
budget.
    I know that the American Army and the Special Forces 
Training Team have already committed a lot of effort in the 
past to providing the training. In fact, the core training in 
Laos was done in 1994, 1995, 1996 by the U.S. Army. So they 
have already contributed quite a lot. We probably don't need 
them back for the civilian program. In fact, quite humbly, some 
of the Laos guys I have worked with, they could probably teach 
me a few things. I am not sure we need to give them much 
technical training anymore. It is simply about the budget. And 
that is what I would like to say. Thank you.
    [The prepared statement of Mr. Keeley 
follows:]<greek-l>Robert Keeley deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Dr. Keeley.
    Professor Weibe.

   STATEMENT OF MR. VIRGIL WIEBE, MEMBER OF THE BOARD, MINES 
                  ADVISORY GROUP (MAG) AMERICA

    Mr. Weibe. Thank you, Mr. Chairman and Congressman Honda. 
It is an honor to appear before you today, along with 
colleagues from Legacies of War and the Humpty Dumpty 
Institute, to discuss this important issue. The Mines Advisory 
Group, better known as MAG, is an international humanitarian 
organization that saves lives and builds futures by destroying 
weapons in conflict-affected countries. MAG is currently 
working in 35 countries across the globe helping communities to 
escape the poverty and devastation caused by conflict. I serve 
on the board of MAG's U.S. partner, MAG America.
    In 1994, MAG established operations in Laos in cooperation 
with the Mennonite Central Committee and Laos National 
Committee. MAG thus became the first international NGO to begin 
clearing the country of its extensive UXO contamination. As we 
have heard from preceding testimony, Laos is one of the most 
heavily UXO-contaminated countries in the world. A thorough 
survey of the country has never been completed and much of the 
land along the eastern border is densely forested. The National 
Regulatory Authority in Laos is currently addressing this 
shortcoming by developing a national contamination database. 
And a clearer picture of the remaining amount of UXO will 
become available in the not-too-distant future.
    A point that is indisputable and most important to note is 
that serious levels of UXO contamination in Laos continue to 
have an extremely detrimental and damaging impact on the 
country's people, its economy, and its future. Widespread 
contamination restricts economic growth by limiting the 
population's ability to grow cash crops thereby forcing 
individuals and families into subsistence farming. Those 
efforts at subsistence farming are themselves hampered by the 
presence of UXO.
    Since the inception of MAG's program in 1994, our approach 
has not focused solely on finding and destroying UXO and 
cluster munitions. Rather, MAG's has seen its clearance 
activities as the first step in relieving the very problems I 
have just mentioned. Currently, MAG operates in Khammouan and 
Xiangkhoang provinces, two of the most contaminated provinces 
in the country, where our goal is to alleviate poverty through 
safe and effective UXO clearance.
    MAG achieves this by linking its activities and strategies 
to the Laos national growth and poverty eradication strategy. 
UXO clearance is one of the three poverty-related programs 
outlined in this national strategy, and MAG is committed to 
achieving the clearance targets and priorities set forth in the 
government's plan.
    MAG also partners with and clears land in support of 
development agencies such as the World Food Program, World 
Vision, and the Laos Red Cross. By linking directly with 
development projects, MAG contributes to improved food security 
and provides access to basic services and infrastructure to 
some of the poorest, most marginalized communities in Laos. 
This integrated approach ensures that our grassroots 
intervention makes an impact not only for our beneficiary 
communities, but also at the regional and national level.
    An impact assessment that MAG completed in 2009 has proven 
that MAG's work results in much more than cleared land. Sixty-
three percent of village groups interviewed in Khammouan and 83 
percent in Xiangkhoang reported increased yield and 
productivity following clearance conducted by MAG. Some 
households reported that they could now plow their land more 
deeply because they were confident they would not be injured as 
a result, again, increasing agriculture productivity. As a 
result of increased crop yield, approximately three out of four 
respondents said their household income had increased.
    In addition to eradicating poverty, MAG's work was proven 
to improve people's sense of security and self-respect by 
removing a sense of risk and hopelessness associated with UXO 
contamination. Ninety-seven percent of the people interviewed 
in Khammouan and 94 percent in Xiangkhoang reported feeling a 
restored sense of pride and a greater feeling of safety and 
security for themselves and their families.
    MAG's program in Laos currently employs 235 individuals; 
229 of which are national staff members. MAG also hires 
community members temporarily to cut vegetation in village-
assisted clearance. For example, in the last quarter of 2009, 
nearly 1,000 community members were employed in such projects. 
By employing individuals from the local community, MAG builds a 
sustainable capacity and empowers them to play a key role in 
recovery from conflict. We recruit women and individuals who 
have been disabled for UXO accidents, as they are too often the 
most marginalized members of their community.
    MAG has been able to achieve these results thanks to 
support from its donors, including the U.S. Department of 
State's U.S. Office of Weapons Removal and Abatement, the U.K. 
Department for International Development, the European Union, 
OZ Aid for Australia, and World Vision. Ongoing support from 
the State Department has resulted in the destruction of over 
30,000 items of UXO.
    In another project, over 2.6 million square meters of land 
was cleared for agricultural use, infrastructure development, 
access to water and schools, in a project funded by the Humpty 
Dumpty Institute and the U.S. Department of Agriculture in a 
space of a year, in 2008 and 2009.
    Unfortunately, as has been mentioned by my colleagues, the 
investment, or, perhaps more aptly put, the disinvestment made 
in contaminating Laos with UXO has far outweighed the 
investment made in cleaning it up. UXO clearance assets 
currently deployed by MAG and other operators are not adequate 
to tackle the extensive challenge presented by such widespread 
contamination. With limited resources, MAG focuses on the 
poorest, most threatened communities and clearing enough land 
to enable them to grow crops and have a sustainable food source 
year round.
    Additional support will enable MAG and other organizations 
to scale-up operations to address these urgent cases more 
quickly and then tackle other unmet demands, such as clearance 
of land for larger-scale farming, commerce and trade, thereby 
increasing the multiplier effect of clearance on poverty 
eradication.
    In closing, I would like to thank the U.S. Government, in 
particular, the Office of Weapons Removal and Abatement, for 
its ongoing support to MAG's Laos program. I would like to ask 
the U.S. Government to provide additional funding for UXO 
clearance in Laos. Without increased support, the men, women, 
and children will continued to be killed by the legacy of our 
secret war.
    Thank you.
    [The prepared statement of Mr. Wiebe 
follows:]<greek-l>Virgil Wiebe deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. All three of you have had an opportunity 
to listen to the testimony from our Deputy Assistant Secretary 
Marciel from the State Department. Would you say that there is 
consensus not necessarily where we have to reinvent the wheel 
or get more organizations involved; we have enough 
organizations; it is just the resources that they need to 
really get the thing moving. Would there be agreement in that 
assessment? In other words, we don't have to go look for some 
more people to come in and help. We have the organizations, but 
they just need more resources like funding to increase their 
operations. Am I correct on this?
    Mr. Keeley. Yes, more or less. It is certainly not about 
new training. I don't really think it is about new technology, 
either. There is room for improvement in the planning and in 
the resource allocation processes in Laos, but the problem is, 
at the moment, management people spend most of their time 
running around looking for cash. It takes away their time they 
have got available to sit down and plan what they are going to 
do.
    Mr. Faleomavaega. In other words, I don't need to be 
looking for 50 specialists from the Department of Defense to 
tell the Laotians how to demine these unexploded ordnance. Do 
you think we have the expertise now in place? Is it just a 
matter of getting more resources?
    Mr. Keeley. I have been doing this type of work since 1981, 
sir, and the Lao people can teach me stuff about these bombs 
because they have been doing this since 1994. So there is a lot 
of expertise in country, both in the organizations that are 
there and amongst the Laos people. So it is not a technical 
question, and I don't think we need much in the way of new 
technology either. It is really--we have a phrase in England, 
``Let the dogs see the rabbit.'' It is more about getting the 
money available.
    Mr. Faleomavaega. Let the dogs see the rabbits.
    Mr. Keeley. It is a sporting term from the greyhound track.
    Mr. Faleomavaega. I am just searching. Let's say we come up 
with an increase in funding. We don't need to depend on the 
Department of Defense for expertise to go down there and 
utilize the funds. That is what I am trying to get at.
    Ms. Khamvongsa.
    Ms. Khamvongsa. I would just like to add, I don't feel like 
we got clear answers today about the reduction in the State 
Department funding amount.
    Mr. Faleomavaega. There are clear answers. It was very 
clear; the fact that they did reduce the funding.
    Ms. Khamvongsa. Right.
    Mr. Faleomavaega. So there is no ambiguity about that.
    Ms. Khamvongsa. As to why that has happened. I think it 
still remains unclear to us, and baffling.
    Mr. Faleomavaega. I will tell you why. Nobody pays any 
attention to the problems in Laos, Cambodia, Vietnam. That is 
the bottom line. I hate to say this, but sometimes when we 
visit our friends in these countries, we are so taken by so 
many voices, interests coming from other countries in the world 
or regions in the world, that sometimes they are not on the 
train.
    I think Laos has been one of the classic examples, even 
though we have some 400,000 Laotians living here in America. I 
think this is something that maybe we need to have more active 
members of our Laotian American community. This is the only way 
that Washington is going to turn. I wish there was a better 
way, but that is the bottom line for members to get their 
attention to any problems affecting--whether it be Laotian 
Americans or Laos itself, that is the reality that we are faced 
with.
    I wish I could be kinder in saying that Laos is the very 
center of attention in our American foreign policy. I hate to 
say this, but we are not on the map yet. Why it has taken 39 
years that all of a sudden a little subcommittee chairman 
thought this may be something we ought to look into; it is 
simply because this is unbelievable. But I am not surprised 
that things like this happen. Laos, Cambodia, Vietnam, just 
falls through the cracks. You can also talk about the Hmong 
people. We can talk about some of our Southeast Asian people 
who migrated to this country. Tremendous hardships. But we are 
not going to give up because of this.
    I wanted to raise another additional question about let's 
say that we do get an increase in funding. I just want to get a 
sense from you. We currently have the current structure that 
can implement the program of clearing up the unexploded 
ordnance. Have we actually taken section by section of the 
country in terms of saying this is certified cleared? Go do the 
farming of whatever? Has there been any effort taken by the 
Laos Government to do this?
    Mr. Keeley. Sir, with the help of the international 
community, the National Regulatory Authority has quite an 
impressive database, not only of the contamination, but 
increasingly they are mapping the records of the clearance work 
that has been done. Now there are some historical legacy work 
that was done precomputer, which they are having trouble now 
putting into that database. So work that is being done today is 
being recorded, and the perimeter is being measured and 
recorded and included in a database.
    Mr. Faleomavaega. This is something my staff will just have 
to follow up on to see where we are at right now.
    Mr. Keeley. The Swiss Government has been supporting the 
management and creation of this.
    Mr. Faleomavaega. I hate to keep saying that 1 percent of 
the contaminated lands have been cleared. I don't want to keep 
saying this for the next 10 years. Have we done anything? I am 
totally not satisfied with the responses that I have been 
getting from the State Department, but we just have to move on.
    I am going to withhold a couple of more questions. 
Congressman Honda, please.
    Mr. Honda. Thank you very much. Thank you for the 
clarification on technologies. The recommendation was 7 for 
2011 and 10 for the next 10 years. Is that the optimum pace 
that we can go at?
    Ms. Khamvongsa. I think that there is growing capacity, and 
I think the State Department, because of their doubling in 
funding from the previous year, I think is evidence that the 
capacity can be met. I would imagine that, with additional 
resources--I mean we are talking about 30 percent increase 
between last year and this year to $7 million. We hope that 
that will then allow for additional technicians, equipment, and 
more long-term planning, which I think is not possible at the 
current rate of funding.
    Mr. Honda. So at that rate of funding that you would 
expect, that you are recommending, we have folks on the ground 
that are prepared to be able to move everything forward and 
expend the resources as it comes? Are we ready to go?
    Mr. Keeley. More or less, yes, sir. The risk of spending 
more faster is that you would get inefficiencies, because there 
wouldn't be a capacity big enough to absorb it. The numbers 
that are being spoken about, I think it is reasonable. There is 
a need for a bit of institutional strength. I think there is a 
need for perhaps some better decisions on resource allocation. 
At the moment, they spend all their management time worrying 
about where next month's money is going to come from. And as a 
result, they never have the chance to draw a breath and step 
back and work out. If they had some consistency of funding, we 
would see better mechanisms so that they could make better 
resource allocation decisions.
    Mr. Honda. With the President's budget they allocated $5 
million, and then the State Department only utilized $1.9. Is 
there anybody from the State Department here? Do you know why 
the State Department did not utilize the full 5?
    Voice. Actually, we will use the entire $5 million. The 
$1.9 million is what is being requested for Fiscal Year 2011. 
So it is going to drop back down in the State Department 
request. But the $5 million that Congress did put into the 
budget for Fiscal Year 2010 will be spent in Laos, all $5 
million.
    Mr. Honda. The request will be put in for $7 million for 
2011. Is there a reason why we would feel that the State 
Department would not spend the $7 million? And then it will be 
our plan to continue the increase to $10 million for the next 
10 years. I guess if you need that sense of certainty, I think 
we can do it. Hopefully, with some sense of commitment, we will 
try and find the appropriate wording that will direct the 
spending in those areas.
    Having said that, you are telling me that there are some 
organizational things that need to be done so that the 
allocation and distribution will be done appropriately so there 
is some accountability on that. And then the mapping and the 
way of looking at how it is going to be done in a systematic 
way so that folks can expect clearance of land in ways that 
will anticipate utilization of land in that manner, is that 
what I hear and understand?
    Ms. Khamvongsa. Yes. Also, I think for our future record, 
it might be good to look into the strategic plan that the NRA 
has, which includes input from all the various donor partners 
as well as NGOs working in this sector. And that strategy then, 
I think, lays out specifically how the institutions will be 
strengthened; how they are going to build capacity over the 
next 10 years.
    Mr. Honda. Mr. Chairman, through the chair, would it be 
inappropriate to ask the group that would be involved how that 
cost breaks down in terms of best equipment to be purchased, 
the cost of training, and the other costs that need to be done 
in order to be able to execute the plan, so that we have an 
idea?
    Mr. Faleomavaega. If the gentleman will yield, I believe 
the Laos Government does have a national commission 
specifically addressing the very issues that we are talking 
about--unexploded ordnance and that of cluster bombs--and they 
do have a commission or committee organized in such a way that 
many aspects of the whole issue dealing with the unexploded 
ordnance and things, I am sure they would have the information. 
And I am sure they would be more than willing to cooperate with 
us if we needed more information. It will definitely be the 
intent of the chair to pursue this as a followup as a result of 
our hearing this afternoon, as well as with the State 
Department, and to see that there is absolutely no question.
    The fear of lack of continuity is something that is common 
practice here in Washington, depending on who the new President 
is. The unfortunate thing with our foreign policies here in 
Washington is that we have become very inconsistent, simply 
because whoever is the new President changes the whole 
landscape of whether we are going to do anything to help that 
country and whether or not priorities are shifted to some other 
area or region. Just like $150 billion is being planned for 
Afghanistan, Pakistan, and Iraq. That has been the core central 
issues of our foreign policies right now, and that is where it 
is at--$150 billion-plus. So that is the reality that we are 
faced with here.
    Mr. Honda. Well, Mr. Chairman, if I may, I understand 
working through the government. As we know it, working with the 
government, there is always the need for partnership with the 
civilian section and oversight, so that there is transparency 
and a sense of a higher level of confidence that it is going in 
the right direction.
    Mr. Faleomavaega. If the gentleman will yield, I definitely 
think we both agree on that line of thought in terms of how we 
can follow up with this.
    Dr. Keeley.
    Mr. Keeley. Sir, thank you. Mr. Honda asked earlier the 
question about food security. Actually, one of the things that 
may be some good news--I kept quiet out of an unusual sense of 
modesty--but one of the areas where Humpty Dumpty has been able 
to tie into other funding that you haven't mentioned is we had 
a very generous grant from the U.S. Department of Agriculture 
over the last 3 to 4 years. In fact, we have received a total 
of $9 million for school feeding. I am looking at food security 
at 150 villages. By the time we are finished, we will be 
feeding up to 20,000 children and their families and their 
teachers. And of that, some $3 million is actually spent on UXO 
clearance.
    We have had two phases of this so far, as Mike mentioned. 
We will be studying a third phase of this in September. So 
there are two point. First, we are looking at the question of 
food security. I know other money is also spent by the USDA 
through the World Food program. So there is that significant 
American contribution. And also it is another source of money 
not accounted for in the State Department or DoD budgets for 
UXO clearance.
    Mr. Honda. Mr. Chairman, if I may, this is off the subject, 
but as land becomes available, it would be of interest to me 
that the land that becomes available stays in the hands of the 
landowners, and not speculators or anything else, so that the 
ability to use the land for families or tribal clans or 
whatever, that that is where the basic control of the land 
should be. Not knowing Laos that well, I guess what I am trying 
to say is that it stays close to the community.
    Mr. Faleomavaega. Thank you so much for making the effort 
to come and testify this afternoon. I promise you the chair is 
not going to finish here. We will continue to pursue this 
issue.
    I believe my good friend, Secretary Clinton, I am sure she 
is not aware that all this has been going on in Laos. We have 
got to come up with the data and the evidence and the 
information to show that the good people of Laos need help. 
With your testimony and your expertise in this area, I do want 
to thank you very much for your coming here.
    My staff definitely will be in touch with you respectively. 
I sincerely hope that we will come up with better results in 
just having a hearing. I sincerely hope that we will be able to 
do this.
    Mr. Honda. Mr. Chairman, before you drop the gavel, let me 
just say publicly that I really appreciate your focus on this. 
I remember you said that we have to have a public hearing when 
we were going through this in our trip to the countries.
    And so just to let folks know that there is a true champion 
who won't tolerate double-talk and is very unabashed about how 
he feels. I just want to let you know that I appreciate that. 
They say the squeaky wheel gets the grease. I hope there is a 
lot of grease out there, because if there is not, I know you 
will squeak louder than hell. I do thank you, Mr. Chairman.
    Mr. Faleomavaega. I thank the gentleman for his comments. 
This is not to suggest that I am some do-gooder out there. I am 
just proud of being an American. When you see things that need 
to be corrected, this is one of them. Like I said, I am sure 
that the general public out there throughout America has never 
heard of these things. I am willing to believe and I have 
complete faith in the willingness of the American people to 
come through and to make sure that our leaders here in 
Washington will pay attention to the problems of this country, 
a least developed country.
    But we have 400,000 Laos people living in this country, so 
it is connected to America. I sincerely hope that those that 
get an education, that they will have an opportunity to go back 
to their homeland and be a contributing member of the community 
and to be of help. They are beautiful people. I just sincerely 
hope that part of the legacy of our great country here in 
America is that we will make every effort to correct our 
mistakes, as we have done in the past. Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 3:57 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>War-Related 
                               Civilian 
                               Problems 
                               in 
                               Indochina-
                               -hearing 
                               COVER deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>War-Related 
                               Civilian 
                               Problems 
                               in 
                               Indochina-
                               -hearing deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
[Note: The preceding document was not reprinted here in its entirety 
but the full document is available in committee records.]
                               <greek-l>Problems of 
                               War 
                               Victims in 
                               Indochina-
                               -hearing 
                               cover deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Hearing--
                               Problems 
                               of War 
                               Victims in 
                               Indochina deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
[Note: The preceding document was not reprinted here in its entirety 
but the full document is available in committee records.]
                               <greek-l>Map of 
                               Laos deg._

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>La
                               o People's 
                               Democratic 
                               Republic deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Watson 
                               statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>A 
                               Peaceful 
                               Legacy 
                               Now: deg._

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
[Note: The preceding document was not reprinted here in its entirety 
but the full document is available in committee records.]
                               <greek-l>UX
                               O Sector 
                               Evaluation deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
[Note: The preceding document was not reprinted here in its entirety 
but the full document is available in committee records.]
                               <greek-l>St
                               atement by 
                               Constance 
                               Woodberry deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>St
                               atement by 
                               Handicap 
                               Internation
                               al deg.___

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>St
                               atement by 
                               Titus 
                               Peachey deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>St
                               atement by 
                               Zach 
                               Hudson deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>St
                               atement by 
                               Dori 
                               Shimoda deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>St
                               atement by 
                               Arthur 
                               Crisfield deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
